GR-90-98-026
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF JUSTICE PROGRAMS
SERVICE, TRAINING, OFFICERS, AND PROSECUTION
FORMULA GRANT TO THE UNIVERSITY OF ARIZONA
 
GRANT NO 96-WT-NX-0006
 
GR-90-98-026
 
MAY 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 96-WT-NX-0006, awarded by the U.S. Department of Justice (DOJ), Office of Justice
Programs (OJP) to the University of Arizona (UA). The UA received a grant of $144,666 to
evaluate the impact of DOJ funding on the tribes which received 1995 and 1996 STOP grant
funding. The grant project period was October 1, 1996, through September 30, 1998. The
purpose of the Services, Training, Officers and Prosecution (STOP) grant program is to
combat violence against women.
Our audit concentrated on, but was not limited to, the period October 1, 1996 through
March 31, 1998. We tested the accuracy and reliability of the UA's accounting system,
reviewed the general ledger, and evaluated the allowability, allocability and
reasonableness of costs.
For purposes of review, we used the Office of Management and Budget (OMB) Circular
A-110, Grants and Agreements with Institutions of Higher Education and Other Nonprofit
Institutions; OMB Circular A-122, Cost Principles for Nonprofit Organizations;
the OJP Financial Guide for the Administration of Grants; and OJP Guideline Manual
M7100.1D, Financial and Administrative Guide for Grants.
In brief, our audit determined the UA violated the following grant conditions:


- The UA charged unallowable costs totalling $1,554 to the STOP grant. The costs were
    incurred by a grant official's relative who was reimbursed for travel expenses incurred
    during research site visits.
- The UA charged unallowable costs totalling $295 to the STOP grant. The costs were
    incurred by a grant official who charged the cost of a five day stay to attend a two day
    conference. 
 
#####